CERTIFICATE OF SERVICE
No. TBD
Michael Aaron Strickland
Petitioner,
v.
State of Oregon
Respondent.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the MICHAEL
AARON STRICKLAND PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
Of the same by Fedex 2-Day, prepaid for deliveryto the following address.
Susan G. Howe
Oregon Department of Justice
1162 Court St., NE
Salem, OR 97301
(503) 378-4402
susan.howe@doj.state.or.us
Counsel for State of Oregon

,------------Lucas eDeus

January 25, 2021
SCP Tracking: Barnes-700 South Flower St., Suite 1000-Cover White

SUPREME COURT PRESS
1089 COMMONWEALTH AVE. SUITE 283
BOSTON, MA 02215
PHONE: (888) 958-5705 FAX: (888) 958-5798
WWW.SUPREMECOURTPRESS.COM
EDITOR@SUPREMECOURTPRESS.COM.

January 25, 2021
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Michael Aaron Strickland v. State of Oregon, Dkt. TBD
Enclosed in this package you will find the following documents pertaining to the above captioned matter:
Forty (40) copies of the MICHAEL AARON STRICKLAND PETITION FOR WRIT OF CERTIORARI
One (1) unbound 8.5" Printout
Certificate of Service
Certified Word Count
Filing Fee Check in the Amount of $300
Our firm, the Supreme Court Press is document preparer. If there are any questions or concerns, we
can be reached at (888) 958-5705 or by email at editor@supremecourtpress.com.

With warm regards,

The Supreme Court Press

SCP Tracking: Barnes-700 South Flower St., Suite 1000-Cover White

RECEIVED
JAN 2 9 2021

